                     SURVEY OF MEDICARE

        BENEFICIARY SATISFACTION

                  1989





                          Richard P. Kusserow
                          INSPECTOR GENERAL




                                                OCTOBER 1989
OAI- 04- 89- 89040
                                 EXECUTIVE SUMMARY


PURPOSE
This surey of Medicare  beneficiares was conducted to assess beneficiar      experience and

satisfaction with the Medcar program.

BACKGROUND

In the past several year, the Medcar program has undergone legislative changes designed to
maintan adequate coverage, yet curb unnecessar spending. Methods of payment to hospitas
have changed, and reimbursements to physicians have been tightened. In 1988, Congrss
passed the Catastrophic Health Car Coverage Act, the most far-reaching change to Medicare
since its inception. The Act enhances existig coverage and adds new benefits such as
hospice car and prescription drgs.

Other reent   changes tothe Medcar program include special programs and procedurs the
 Deparent of Health and Human Services (HS) has instituted to improve beneficiar
 service. Among these are toll-fre telephone numbers and information about individual
 hospitas ' patient care outcomes.

  To assess experience and satisfaction with these changes and with the Medcar program in

  general, the Inspector General of HHS has conducted a surey of Medcar beneficiares. A

. questionnaie was mailed to 640 randomly selected beneficiares for whom Medicare Par B

  claims were submitted in Calendar Year 1987. Paricipation in the surey was to lly
  voluntar. An overal response rate of 64. 6 percent was achieved.

 FINDINGS

 This surey found that:


               Overall , beneficiares appear very satisfied with Medicare.

               Eighty- five percent can get information about their benefits when they need it.

               Ninety percent find the information they receive about Medcar to be helpful.

               Seventy-four percent think claims are paid quickly enough.

               Eighty-eight percent of the beneficiares who submit their own claims are satis­
               fied with the way Medicar processes them.
Sixty-five percent of the beneficiares either are not aware of or do not
understad the Catastrophic Health Car Coverage Act.

Seventy-two percent of the beneficiares indicate they do not have a way to
cover the cost of long- term care should it be neeed.

                                                                    home reports.
Few beneficiares know about hospita mortlity     data and nursing
                  ..............
                           ........ ................................ .......... .......
                                                                            ................   ................................
                                                                                             .... ................ ........ ................
                                                                                                          .............................  ..' .




                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY

                                          .......................................................................................... 1


I NTR 0   D U   CTIO N ............. 


            Ba ckg ro u n d..................................................................... .......................... 1

                                                                      ................................................................. 2

            Pu rpose ..... ................ ................ 

                                                                        ............................................................... 2

            Meth ods ..................................... ..

                                 ................................................................................................... 3

FI N DIN G S . 

                                                                                                                                            . 3

                Beneficiaries Can Get Information When Needed

                Beneficiaries Are Satisfied                                            .................................................. 5

                With the Processing of Claims

                Most Beneficiaries Do Not Understand
                the Catastrophic Health Care Coverage
                                             
                                           Act .................................                   6


                Beneficiaries Need Financial      Assistance
                                    ................................................................................. 9

                For Long-Term Care
                                                                                                         ......................... 9

                Few Beneficiaries Know About Special Services
                                                                                         ...................................... 9

                       Second Opinion on the Need for Surgery

                       Participating Physicians. ................ ........................... ......... ................ .... 9


                       Mortality Figures and Nursing Home Reports 


 CO N CLU S ION


  APPENDICES
                                                                                                    .......................... A - 1

                 Appendix A: Methods and Sample Selection 

                 Appendix B: Analysis of Respondents vs. Non- Respondents......

                 Appendix C:              Responses to Medicare Beneficiary Survey ........... C - 1

                                                    INTRODUCTION



BACKGROUND

Medicare Program
                                                              age 65 and older and for cer-
Medcare is a Federal health insurace program for individuals                      Medcare
tan disabled people. Authorize in 1966 by title XVIll Medcare
                                                      of the Social Security Act,
                                                                paid benefits in excess of
                                                        beneficiaries.
serves over 33 millon people, known as 


$79 bilion in Fiscal Year                  1987.


                                       Par A (hospita insurance) helps pay for inpatient hospi-
The Medcare Program has two pars.
                         car in a skiled nursing facilty, skilled home health car, and hospice

tal care, some inpatient                            receives this coverage. Par B (medical in-

care. A person entitled to Medcare automatically                              medcal services
surance) covers physicians ' services, outpatient hospita services, and other
                                              desirg this coverage pay a monthly premium.
and supplies. Par B is optional. Beneficiares
                            deductible and coinsurce requirements. Beneficiares must pay
Both Par A and Par B have                               insurce plan.

 these either out-of-pocket                 or though coverage by another 




 The Health Car Financing Admnistration (HCFA) within the           Deparment
                                                                 progr.           of Health
                                                                             However,  otherand
                                                                                              organi­
 Human Services (HS)       has  responsibilty for the Medicare                                    es­
                                 s adinnistration. The  Social Securty   Administration  (SSA)
 zations share in the program                                      collects the premiums for Par B
 tablishes eligibilty, enrolls beneficiares in the program, and                                   ser­
 coverage. Prvate health     insurance companies    contract with the Federal  Government    to "
                                                                              Par A claims
 vice" claims for Medicar payments. Insurance companies that carriers.handle
                                                                             are called 

  called     intermediaries.
                                       Those handlng Par B clais




  Recent Changes
                                               Medicar program           has undergone legislative changes designed to
   In the past several years, the                                                              of payment to hospitas
   maintan adequate coverage, yet curb unnecessar spending. Methods
   have changed, and reimbursements to physicians have been tightened.


    In 1988, Congress passed the Catastrophic Health Care Coverage Act, the most far-reaching
                                                                                        new
    change to Medicare since its inception. The Act enhances existing coverage and adds


     liabilty.
    benefits such as hospice care and prescription
                                                   drgs. Under the Act, beneficiares wil pay

    higher Par B premiums and some wil pay supplemental
                                                             premiums based on their income tax
                        the Medcar program include speial progrs
                                                                     and procedurs
Other reent changes to
                                                                Among these ar toll-
HCFA has instituted to improve service to Medcare beneficiares.         ' patient care out­
telephone informtion numbers and information about individual hospitals
comes.


PURPOSE
                                                                                           sat­
Ths surey of Medcare beneficiares was conducted to assess
                                                          beneficiar      experience and

isfaction with the Medcar program.


METHODS
                                                 maled in June 1989 to 640 radomly selected
A questionnaie composed of 54 questions was
                                                 were submitte in Calendar Year 1987. Their
 beneficiares for whom Medcare Par B claims                    provides more informtion on
 parcipation in the study   was totaly volunta. (Appendix A

 methodology.
                                                              questionnais were  retued
 A tota of 401 completed    questionnaies were reeived. Six
 undeliverable and 13 individuals were erroneously selecte    for the surey. This reuced the
 sample from 640 to 621.

 The overal response   rate was 64. 6 percent.
                                         FINDINGS


This surey of Medicare beneficiares found that:


             Overall , beneficiares appear very satisfied with Medcar.
             Eighty-five percent can get information about their benefits when they
                                                                                    nee     it
                                                                       Medcare to be helpful.
             Ninety percent find the information they recive   about


             Seventy- four percent think claims , are paid quickly enough.
             Eighty-eight percent of the beneficiares who submit their own
                                                                               clais ar satis-
             fied with the way Medicare processes them.

              Sixty- five percent of the beneficiares either are not aware of or do not
              understad the Catastrphic Health Ca Coverage Act.

              Seventy- two percent of the beneficiares indicate they do not have a way to
              cover the cost of long- term care should it be neeed.

              Few beneficiares know about special services Medicare offers, such as hospital
              mortlity data and nursing home reports.




                                                                                          goo
 Approximately 62 percent of the beneficiares responding consider themselves to be in
                                         coverage in addition to Medcare.
 health. Eighty-two percent have medical 





 BENEFICIARIES CAN GET INFORMATION WHEN NEEDED.
 Medicare administrators have a responsibilty to provide
                                                            progrm information to beneficiares
                                                                          provides introduc­
 and to answer their questions. The Social Securty Admistration (SSA)                   other
 tory information , and each beneficiar receives a Medcare Handbook. Pamphlets and
                                                               program changes. In addition,
 information are mailed to each beneficiar periodcally as the
                                                                      Medicar Handbook)
 each Medicare carer has a toll- free telephone number (listed in the
 which beneficiares can call with questions about individual claims.

  A beneficiar   s level of satisfaction is often related to his or her experience with getting and
  understanding information about the program. Eighty- five percent of the respondents say they
  can get information when they need it, and 73 percent of the respondents consider the program
  to be " understandable. " More than one- third (36 percent) indicate they have never needed to
                                                                        neeed help, only
get speifc information about their coverage; however, of those who have
13 percent were seldom or never able to get it.

Alost all (90 percent) of the respondents who say they have reeived     information about

Medcare found it helpful. Most found the wording easy to understand, the amount of infor­
mation suffcient, and the lettering large enough to read Figu 1 shows the specifc ratings.


                                           FIGURE 1

                BENEFICIARIES FOUND MEDICARE INFORMATION HELPFUL

                 PERCENT

                 100
                           90"1                                      89"1




                                                    FOUND            FOUND

                          FOUND          FOUND
                                                  AMOUNT OF        LETTERING

                       INFORMATION      WORDING
                                                 INFORMATION         LARGE
                           HELPFUL      EASY TO
                                                                    ENOUGH
                                      UNDERSTAND SUFFICIENT




                                                                           , yet separate from
 Most beneficiares prefer to receive program information though the mail
 their Social Security checks. (Severa beneficiares note that they have their Social SecUrty
 checks ditly    deposited to the ban.

 When information is needed about what Medicar covers, the majority of the beneficiares
 fIrst call or visit the Social Security offce. When asked about other sources for information
                                                                                     contact their
 most beneficiares say they would be likely to refer to the Medicare Handbook or
 carers.
Only a few of the respondents (9 percent) listed specific complaints about the informational
material they receive. Some tyical comments were:

                      They are written too techncaL. have to read it several times.
                      Some are ambiguous.
                      Not enough pertinent informtion."


BENEFICIARIES AR SATISFIED WITH THE PROCESSING OF CLAIMS.
An importt aspect of the Medcare               progr is assurng that beneficiares receive appropriate

benefits. Clai for Medcar payment                 ar fied by   either the medcal provider or the benefi­

ciar.
                                                                                   ar fied by the medi­

Par A claims, which include hospital and skilled home health servces,
                                                                 have litte or no involve-

cal provider, who is then paid diectly by Medcare. Beneficiares                 payment Medcare has
 ment in the claims process. They do, however, receive notice of the
 made to the provider.

 Sixty-seven percent of the respondents who indicated they have been in the
                                                                        for.hospital since of
                                                                             Thee- quarers
 their Medcar coverage began say they understad what Medicare paid
 the beneficiares who had received 
home health services say they understand Medicar pay-
 ments for those servces.

                                                    fied by either the beneficiar or the
 Par B claims, which include physician services, may be               Par A claims, the
 provider. The Medicar payment may be made to either of them. As with
                                    of
 beneficiar receives an explanation 
             the payments made.


 Although all beneficiares parcipating in the survey have had Par B
                                                                        clais, their involve­
                                                                          fie the claims. Fifty-
 ment with the claims process is based on whether they or the providers
 nine percent of the respondents to this surey say they fie claims themselves; physiciansques­
 routinely fie claims for the other 41 percent. Because of this difference, some survey
                                                                           fie their own claims.
 tions were asked of everyone, and some were directed to just those who

  Sixty-nine percent of flthe respondents think the payment policies; in general, are clear.
                                                                            enough.

  Almost three-fourths of the benefICiaries believe claims are paid quickly 


                                    all   the beneficiares know of the toll- free number to call their
                                                                                                         car-
  Slightly more than half of 

                                                                   Most (80 percent) of those
  ers to check on claims. However, only half of those have used it   founhs of the beneficiar­
  who have called the number are satisfied with the service. Over thee­
  ies ar    aware they can       appeal decisions made on their Medicare claims.
                 . "




Those beneficiares who fie their own claims (59 percent of all the respondents) were asked
questions about their personal experiences with, the claims process.

Over     85   percent of these        228   benefICiaries are satisfied, in general, with the way Medicare
processes their clams. 
             When asked to cite problems, 82 people responded. The problems
they cited vared Some examples are:

                           It takes too long.
                             s hard to keep up with what s been paid and what han
                           Sometimes they pay; next time they don
                           We send the requested informtion,    and they respond wanting the same inform­
                      tion again.



 The beneficiares who submit their own claims were then given a list of possible problems and
 asked if they had ever experienced any of them. Their responses follow:


                       Fift-one percent  indicated having had a problem understandig        what Medicare
                       paid on individual claims.


                                                insurnce.
                       Thiry-eight percent had not been able
                       their supplemental
                                                                   to determne how much should be paid by



                       Seventy-eight percent have had trouble getting information on the status of their
                       claims.

                       Twenty-six percent have had a problem mling out the claim form. (Wen they
                       do need assistance in this area, beneficiares most often go to their physicians
                       offces for help.

  MOST BENEFICIARIES DO NOT UNDERSTAND THE CATASTROPHIC HEALTH

  CARE COVERAGE ACr.

  The Catastrophic Health Car            Act of 1988 made substantial changes to the Medicar
                                             Coverage
  program and received much attention from the media, senior citizen advocates, and HHS. The
  HCFA conducted two mass mail-outs to beneficiares to inform them of the changes made by
  the Act. The fIrst, in September 1988, was a 12 page pamphlet describing the changes. Then
  in December 1988, HCFA mailed each beneficiar a new Medcar Handbook which provided
  a summar of the changes and incorporate them throughout the Handbook.
                                                                                . 1989 surey,
Despite the information beneficiares had been sent six months prior to this June
65 percent of the beneficiares either were not awar of the Act
                                                               or said they did not understand


                                                                             Half of those
Over one- four (29 percent) of the respondents had not heard about the Act.
                                                                    11 percent of those who
who had heard of it said they did not understand it very well. Only
were aware of the legislation thought they understoo the changes very well.

After askig about their general understanding of the Act, beneficiares were asked about their
knowledge of five major changes. Only hal knew about the increase in hospita coverage
which became effective in Januar 1989. Just under hal knew of the supplementa premiums
which had also become effective in Januar. Only one- third knew of the other changes to be
phased-in. Figu 2 shows the beneficiares ' awareness of five changes brought about by the

Catatrophic Health 
Ca Coverage Act



                                           FIGURE 2

                             FEW BENEFICIARIES WERE AWARE

                         OF CATASTROPHIC HEALTH CARE CHANGES





      CHANGE IN                                     51%

      HOSPITAL

     . DEDUCTIBLE


                                                  47%
     SUPPLEMENTAL

     PREMIUM



      INCREASE IN                          35%
      HOME HEALTH


      LIMIT ON PART B
      OUT-OF­

      POCKET

      EXPENSES

      PRESCRIPTIONS                         36%
      DRUG

      COVERAGE


                                                                         100

                                  PERCENT AWARE OF CHANGES

The majority of those beneficiares who knew about the changes leared of them from the
meda or the HCFA material reeived in the mai. Only 17 percent of the respondents knew of
the toll- fr number that can be used to get more information about the Catastrophic Act.

When asked if the changes improve the Medicar program, the responses were mixed.
                                                        understoo the changes:
those who said they were aware of the Catastrophic Act and



             Forty percent thought the changes 

                                                                IMPROVED          the progrm.

       Typical comments of those beneficiares were:

               It helps people with little or no savings.

               Definitely offers some peace of mind to all Medicare beneficiaries.



             Twenty-eight percent thought the changes 

                                                                           DID NOT IMPROVE 
             the program.


       Examples of their comments were:

              It penalizes seniors woo have saved to pay their own way in their retirement.
             The more saved and the more income, the greater the payment (liabilty).
                It penalizes those woo have been careful in financial                          matters, and gives to tOOse
              woo weren


              Thiry-      two percent        DID NOT KNOW 
           if the Catastrophic changes improved
              Medicar.

        Examples of their comments were:

                l do not say that Catastrophic Health Care is not good; OOwever, I wil be pay­
               ing towards it every month. Therefore, my Social Sec urity becomes less of an in­
               come for me to live on each month.
                 I question whether or not most people 

                                                         65 and older can afford to pay the sup­
              plemental premium which wil                     escalate each year.
BENEFICIARIES NEED FINANCIAL ASSISTANCE FOR LONG-
                                                  TERM CAR.

It appear that most beneficiares have not made adequate plans should they reuire lengthy
nursing home care. Seventy- two percent of the respondents indicate they do not have a way
to cover the cost of custodallong- tenn car if it is neeed.

Of those who say they could pay for nursing home car    (28   percent of the respondents):



              One- third (36 percent) say they would rely on private insurance, although six
              percent of these respondents indicate they do not cun-ently have private
              insurance.

                                                                                      them
              Eighteen percent say they would rely on Medcaid, although 29 percent of
              indicate they do not curently have Medcaid coverage.

              The remaining 46 percent say they would rely on personal assets such as
              savings, income, and home equity.



After we asked respondents to indicate whether they could pay, we asked all respondents if

(before today) they thought that Medicare would pay for long term nursing home care for

                                                                             wil pay for

more than five months. One quarer of all respondents thought that Medicare
long term custodal car, although it does not.





 FEW BENEFICIARIES KNOW ABOUT SPECIAL SERVICES AVAILABLE.


 Second Opinion on the Needfor Surgery
                                                                             for a second opin­
 Over half (57 percent) of the beneficiares do not know Medicar wil pay
 ion prior to surgery. Furthermore, of those who 

                                                   are aware, 60 percent are not famiiar with
 Medicare s Second Opinion Referrl Center where they can get a second doctor
                                                                                    s name. Of
 the 230 respondents who have had surgery since being covered by Medicare, only 69 say they
 got a second opinion. Most (81 percent) got the name of the second doctor from their per­
 sonal physicians. Only one respondent has used the Referr Center.


 Partcipating Physicians

                                                                                       " who
 Over three- fourths of the respondents ar aware of Medicar s "paricipating physicians
 agree to charge no more than Medicare s approved amount. However, fewer than half the ben­
 eficiares know they can contact their carers to get the names of parcipating physicians
                                                                        Neverteless, 68 per­
their aras. Only 14 percent of them have ever sought this information.
cent of al the respondents indicate they would be liely to seek this information in the
                                                                                        futu.

Accordig to other responses:
             Sixty-five (65) percent of the beneficiares currntly go to parcipating
             physicians.

             Twelve (12) percent do not go to parcipating physicians.

              Twenty-thee (23) percent do not know if any of their physicians are
              paricipating physicians.




Mortality Figures and Nursing Home Reports
The Deparent of Health and Human Services is concerned about the quality of
                                                                            car Med­
                       Medcar publishes information to help them choose medcal care
care beneficiares receive.
facilties. This surey found that only a few respondents know about two such reports:

        (1) mortalty rates of Medcare beneficiares discharged by individual hospitas and
        (2) results of nuring home inspections.

 The following char shows how beneficiares responded to questions about this information.


                             FEW ARE AWARE OF MEDICARE REPORTS


                                                Mortality      Nursing Home
                                                 Rates          Inspections
         Respondents
         Awar Of
         Information                               10%               21%

         Those Aware Who
         Have Used
         Information

         Respondents
         Likely To Use
         Information                                54%              86%
         In Futur
                            . .




                                      CONCLUSION



Overal, beneficiares appear very   satisfied with the Medcare progr. They fmd the informa­
tional materials mailed out helpful, the progr understandable, and they
                                                                         ar able to get infor­

mation when they need it. They are also satisfied with claims processing and they feel that
clai    are paid quickly enough.

However, most beneficiares:

              do not understand the Catastrphic   Health Car Coverage   Act;


              have not adequately planned for the cost of long-term care;

              do not seek second opinions prior to surgery; and

              do not know about hospital mortality data or nursing home reports.
                                        APPENDIX A


                          METHODS AND SAMPLE SELECTION

The purpose of this surey was to assess beneficiar experience and satisfaction with the
Medicare progr. Therefore, the sample universe neeed to be beneficiares who had used
progr servces and benefits.
The potential respondent universe was made up of approximately 30 millon individuals who
had received Par B Medcar benefits in Calenda Year 1987. A non-strtified simple radom
sample of that universe was selected. Since a surey of Medcare beneficiares had not
previously ben conducted, a response rate could not be prected. However, a 60 percent
response rate was desired

Based upon previous experience with Social Securty client sureys, the sample size was
calculated to produce an estiate within 10 percent of the tre value at the 95 percent
confidence level. To arve at the sample size, stadard equations were employed for
estimating sample size with a binar response varable.

A sample of 640 Health Insurance Claim (HC) numbers was drawn from HCFA' s Par B

Medicare Annual Data System (BMAD) fies. Those numbers were cross-matched with

Social Securty s Master Beneficiar Record (MBR) fles to obtain the name and address

associated with each mc.


 The 640 questionnaires were mailed on June 8 and resulted in 261 responses, of which 219
. were completed and 42 were blan. (To avoid being included in follow-up contacts, the
  beneficiares were asked to return their questionnaires blank if they chose not to parcipate.

 A second mailing to the 379 non-respondents was done on June 22. The following week
 telephone calls were made to the 240 non-respondents for whom numbers could be obtaied.
 These follow-up efforts resulted in the receipt of 196 questionnaies, of which 182 were
 completed and 14 were blan.


 A total of 401 completed questionnaires were received. Six (6) questionnaies were returned
 as undeliverable and 13 individuals were elToneously selected for the surey. This reduced
 the sample from 640 to 621.

 The overall response rate was 64. 6 percent.
                             ..




                                       APPENDIX B


               ANALYSIS OF RESPONDENTS VS. NON- RESPONDENTS

A consideration in sureys of ths tye is the bias which may be introduced into the results if
                                                               determne if significant
the non-respondents are different from the respondents. To
differences exist in this surey, specific characteristics of the 401 respondents
                                                                         among
                                                                                 and the 220
                                                                               data  extracte
non-respondents were compar. The
                                         charcteristics examned were
from the Social Securty Master Beneficiar    Record.



METHOD OF ANALYSIS
                                                           extent to which respondent
Responses to thee questions were analyzed to measur the
characteristics correlate with opinions of the Medcar
                                                      program. The questions asked about
                                                      services, and clais processing. These

the Medcare program in genera, about informational 

                                                     the thr questions was analyze by age,

questions were asked of everyone sureyed. Each of
gender, and time of response.




 The specific questions selected to perform this analysis were:

                     Is Medicar understandable?
        1.b.         Can you get information when you need it?
        1.d.         Are claims paid quickly enough?



 ANALYSIS BY AGE
                                                             72 for non-respondents. The

 The average age for respondents was 78, compard to age
                                                          comparable-approximately       2

 distrbution of beneficiares who are age 49 or younger is
 percent for respondents and 3 percent for non-respondents.


  Responses of beneficiares age 73 and younger were compared to those of beneficiares     age 74
                                                                                   responses to
  and older. The analysis by age revealed no statisticaly signifcant difference in
  any of the three questions.
ANALYSIS BY GENDER

                                                                                            were males and 54
The analysis by sex showed that 46 percent of the sample populatio
percent females. Two- thirds of the men responded, but only 59 percent of the women. In
comparson of male and female responses to the
                                                                  th
                                                       questions, there was no statistically
significant difference between the sexes. Therefore, the fact that the response rate for femaes
was slightly lower than for males is not significant. A higher femae response rate would have
resulte in virually the sam results.

ANALYSIS BY TIME OF RESPONSE

Surveys similar to this one indicate differences may exist betweentendencies,
Because late respondents and non-respondents may share
                                                            certn early and late
                                                                               an "responses.
                                                                                    early- late
                                                           estiate possible non-response bias.
                                                                                             

comparson of satisfaction levels may be a useful way to
                                                                satisfaction surve/ suggested

For example, an "early- late" comparson for a Social Securty
that " the non-respondents, although not more negative, may be less enthusiastic than the

respondents.

                                                                                             There was no statistically
 In this surey, the IlTst 303 responses were compared to the last 98.
 significant difference in their responses to the three questions mentioned above. This suggests
 that there ar      no signifcant diferences between respondents and non-respondents.



 FOLLOW- UP BY TELEPHONE

 Additional insight regarding non-respondents was gained in the course of follow-up contacts
 by telephone. Thiry- five beneficiares contacted by phone promised to complete   the
                                                                              who were called
 questionnaie; fewer than half ever  sent in their questionnais. Thir-seven
                                                                             survey. Their reasons included injury
  said they were unwiling or unable to paricipate in the                             Six
  or ilness, inadequate experience with and knowledge of Medicare, and lack of time.
  beneficiares did not speak English.



  No telephone number was available for 91 of the non-respondents.    A relatively small number
                                                                instances where phone numbers
  of beneficiares have " non-published" phone numbers. In 15
  were available, no successful contact was made in spite of repeated attempts.

  The majority of questionnaires which were returned blank included no comment,    while some
                                                                              parcipation were

  included a brief note of explanation. Typically, the wrtten reasons for non-

  similar to those cited above.



                                                                                                      Social Security
   1 Offce of Insptor         General ,   United States Deparent of Health and Human Services.
     Client Satisfaction: Fiscal Year 

                                              1989. OAI- 12-89-0020. August 1989.
                                      APPENDIX C


                                                    Response         Percentage
Question	

Part 1: MEDICARE COVERAGE

1. In general ,   do you think:

       a. The Medicare    progr is understandable
         YES	                                            2379

                                                         106

         NO ANSWER:


          YES
          NO 	
       b. You can get information about Medcare when you


          NO ANSWER:
                                                         320
                                                            nee it




       c. Medcare payment policies are,understandable

          YES                                             257

                                                          118
          NO ANSWER:

        d. Medcare pays your claims quickly enough
          YES	                                            280
                                                          100
          NO ANSWER:



 2. Do you or     your spouse have other medical insurance that covers your medical
    expenses in addition to what Medicare covers?
            MEDICAID
            PRIVATE INSURANCE
             TO SUPPLEMENT MEDICARE                        249
                                                                            0.3
            CHAMPUS
            OTHR
            NO ANSWER:

Question                                                  Response      Percentage

3. Do you     feel at this time you are in good health?
                                                             149
            YES                                             243
            NO ANSWER:



4. Have you ever    been a patient in a hospital for at least one night since you have been
       covered by Medicare?

             NO (Skip to Q-                                  130
             YES                                             267
             NO ANSWER:



S.     Thinking about the most recent time you were a patient at least one night in a
       hospital, was it clear to you what Medicare paid for?


             YES                                             177
             NO ANSWER:



 6. Have you ever      received medical services in your home from a health agency since you
       have been covered by.1 1edicare?

             NO (Skip To Q-                                   347
             YES
             NO ANSWER:




     7. Thinking about the most recent time you received medical services in your home

        from a home health agency, was it clear to you what Medicare paid for?



              YES
                                                    Response      Percentage
Question
8. Are you    currently living in a nursing home?
                                                      374
         YES (Skip TO Q- 12)
         NO ANSWER:


                                                                               cost?
9. If you should ever need nursing home care, do you have a way to cover the
                                                       236
         YES
         NO ANSWER:


                                                                       Which of these
10. Listed below are some ways people might pay for nursing home care.
    would you rely on if you ever needed home care for more than 5 months?

       a. Personal savings
           YES                                             126
                                                           163
           NO ANSWER:                  112

       b. Retiement income
           YES                                             110
                                                           175
           NO ANSWER:                  116




             NO 

        c. Prvate insurace that covers nursing home care
           YES

             NO ANSWER: 

                                       133
                                                           214



        d. Medcaid
             YES                                           100
                                                           183
             NO ANSWER:                 118


        e. Equity in your home
           YES
                                                            188
              NO ANSWER:                135

         f. Other
                                                             Response             Percentage
 Question
 11. Many people think Medicare will pay for long- term nursing home care. It currently
                                                                 PAY for long- term
     doe not. Before today, did you think that Medicare WOULD
     nursing home care for more than 5 months?
                                                                    250
           YES
           NO ANSWER:




from
 Part 2: GETTING INFORMATION ABOUT MEDICARE

 12. Do you recll getting any pamphlets or handbooks in the mail
     Government or notices enclosed with your Social
     Medicare program?
                                                                                     the Federal
                                                                   Security check that describe the




            NO (Skip To Q- 16)

            YES                                                      289

            NO ANSWER:


                                                                                           , were most
  13. Thinking about those pamphlets, handbooks, and notices with your check
      of them:
                                                                     241
             GENERALLY HELPFU
             GENERALLY NOT HELPFU
             NO ANSWER:
  14. Please write in the reason, if any, those pamphlets, handbooks, and notices were not
      helpful:

              NUBER OF PEOPLE RESPONDING
                                                  Response	         Percentage
Question
                                                                    received, would you
15. Thinking about the pamphlets, handbooks, and notices you have
   say that:



      a. The wording is easy to understad
         YES	                                             195




         YES
         NO ANSWER:




         NO
       b. The amount of information covere is suffcient


         NO ANSWER:
                                                          191




       c. The lettering is large enough to read
          YES                                             238

           NO ANSWER:




 16. Listed below are ways the Government could use to tell people about changes in the
     Medicare program. Which method(s) do you prefer?

           PAMPHLETS OR HANDBOOKS
            THOUGH TH MAn.                                 222
           NOTICES WI
            SOCIA SECURI                  CHECK
           ANNOUNCEMENTS IN TH NEWSPAPER
           ANNOUNCEMENTS ON
            TELEVISION AND RAIO
           SPEECHES OR PRESENTATIONS
            BY MEDICARE REPRESENTVES
           OTHR
                                                                         Response        Percentage
Question
                                                                                           specifc
17. Next, we would like to ask about times when you have needed to get

     information about your own Medicare coverage.
                                                                          How
                                                                          

                                                                              often were you able to get the
      information you needed?

                MOST OF TH                                                  142
                SOME OF TH
                SELDOM OR NEVER
                I HAVE NEVER NEEDED
                  TO GET INORMTION                                          138
                NO ANSWER:



 18. H 
 you did need to get information about what Medicare can help pay, where would
       you go first to get it?

             NUMBER OF PEOPLE RESPONDING                                    358
                                                   Response          Percentage
Question
19. The following are some places people might go to get answers if they have questions



         YES
   about their Medicare coverage. Would you be likely to go to any of the following:



         NO
       a. The insurance company that processes your Medicare clai


         NO ANSWER: 

                                                       182
                                                       172



       b. The Medcare Handbook
         YES                                           223
                                                       133
         NO ANSWER:

        c. The Social Securty     offce

          YES                                          282


         NO ANSWER:


       d. A friend or relative

          YES

                                                        271
           NO ANSWER:

        e. An insurance salesperson

           YES

                                                        312
           NO ANSWER:

        f. A senior citizens '   group
           YES
                                                        254
           NO ANSWER:
Question                                             Response       Percentage


Part 3: MEDICARE CLAIMS

20. Do all of your doctors submit your Medicare claims for you so that you do
   not have to submit the claims yourself?

         ALL OF TH     TI (Skip to Q-26)                159

         MOST OF TH                                     116

         SOMETIS

          SELDOM OR NEVER

         NO ANSWER:



21. Overall, how satisfied are you with the way Medicare has processed the claims you

    have submitted?


          VERY SATISFIED

           GENERAY SATISFI                              141

           GENERALLY DISSATISFI

           VERY DISSATISFID




22. What problems, if any, have you had with the way Medicare processes your claims?

           NUBER OF PEOPLE RESPONDING                   115




 23. Do you get help fillng out your Medicare claim forms?

           ALL OF TH TIM

           SOME OF TH 

           NEVER

           NO ANSWER:





                                             . C­

Question                                           Response            Percentage

24. Listed below are some places people might go to get help fillng out Medicare claim
    form. If you needed help in fillng out your Medicare form, would you be likely to
   get help from any of the following?

       3. A frend or relative
          YES
                                                       137
         NO ANSWER:

       b. Your doctor s office
          YES                                          150

         NO ANSWER:

       c. A Social Securty offce
           YES                                          107
                                                        101
          NO ANSWER:

       d. A senior citizens ' center
          YES
                                                        144




           YES
           NO ANSWER:

        e. The insurance company that processes your Medicare claims
                                                        101


           NO ANSWER: 

        f. Other
           NUBER OF PEOPLE RESPONDING
Question                                                   Response     Percentage

25. The following are possible reasons why someone might be dissatisfied with Medicare
    claims. Have any of the following been a problem for you?

           a. Filng out Medcar clais
                  YES
                                                               160




                  YES
                  NO ANSWER:


           b. Gettng information on the status of your clai

                                                               142




                                                               77

                  NO ANSWER:



                  YES
                  NO                                           124 

            c. Determning how much should be paid by other insurce you have




                  YES
                  NO ANSWER: 





                  NO
            d. Understading what Medicare paid on your claims and why


                  NO ANSWER: 

                                                               107
                                                               104




 26. There is a
                                 in your Medicare Handbook that you can use to telephone
                          toll-free number 



       the insurance company to get information about your Medicare claims. Did you
       know about this toll- free number       before today?

                                                                181
                   YES                                         207
                   NO ANSWER:



 27. Have you ever used this toll- free number to get information about Medicare claims?

                   NO (Skip To Q- 30)                           276

                   YES                                          105

                   NO ANSWER:

                                                          Response       Percentage
Question
28. Thinking about the 

                               time you used this toll- free number, how satisfied were you
                              last


      with the service you received?

                VERY SATISFID

                GENERALY SATISFIED
                GENERALLY DISSATISFI

                VERY DISSATISFID

                NO ANSWER:



 29. Listed below are possible reasons that someone would be dissatisfied with this
                                                                                you called
     toll- free service. Did you have any of the following problems the la time
     the toll- free number?

             a. Line was busy

                YES


                 NO ANSWER:

              b. Put on "Hold" too long

                 YES


                  NO ANSWER:


                  YES
              c. Answers given were not understandable


                  NO ANSWER:

               d. Answers given were not corrct

                  YES


                   NO ANSWER:

               e. Person answering call was not very courteous
                   YES

                   NO ANSWER:


                f. Other

                    NUMBER OF PEOPLE RESPONDING

                                                               Response          Percentage
Question
                                                                                              When
30. Sometimes people disagree with the decisions made on their Medicare claims.
                                                                           decisions. Did you know
     this happens, you may appeal or request a review of those
     before today 
 that you could appel or request a review?


               YES                                                 299
               NO ANSWER:



Part 4: SPECIAL MEDICARE SERVICES.

31. If your doctor recommends that you have surgery, Medicare wil help you pay to you
                                                                            Were  get
      the opinion of another doctor to make sure the surgery is really necesary.
      aware       before today      that Medicare would help to pay for you to get a second opinion
      before having surgery?
                                                                   225
                 YES                                                171
                NO ANSWER:


 32. Were you aware
                                 that you could get the name of a second doctor from
                                 before today 



       Medicare s Second Opinion Referral Center?
                                                                    324
                 YES
                 NO ANSWER:


 33. Have you ever had surgery since you have been covered by Medicare?

                  NO (Skip To Q- 37)                                160
                  YES                                               230
                  NO ANSWER:


                                                                                           s opinion
  34. Thinking about the last time you had surgery, did you get a second doctor
        before having surgery?

                      NO (Skip To Q- 37)                             156
                      YES
                   NO ANSWER:
Question                                           Response            Percentage
                                                                       s opinion?
35. Did you or the doctor fie a Medicare claim for the second doctor


         YES
         NO ANSWER:



36. Where did you get the name of the second doctor you got an opinion from?

         FROM YOUR DOCTOR

         FROM A FRIEND OR RELATI

         FROM MEDICARE' S SECOND

          OPINION      RERRCENTR
          OTHR
          NO ANSWER:


37. Medicare bas " participating doctors" who have agreed to charge no more than
    Medicare s approved amount. Medicare pays 80% of the approved amount and you
    are only responsible for paying the deductible and the 20% coinsurance.

    "Participating " doctors        bil Medicare for you.

                               always




   . Before today, had you ever heard about Medicare s " participating
                                                                      " doctors

    program?



           YES                                            298
           NO ANSWER:



 38. Are any of your doctors a " participating" doctor?


           YES                                            249

           DON' T KNOW

           NO ANSWER:

Question                                               Response        Percentage

39. Were you aware
                                      you could get information on whicb doctors are in
                              before today that 



      Medicare s "participating" program?

                NO (Skip To Q- 41)                         211

                YES                                        157

                NO ANSWER:



40. Have you ever used this information to select a doctor to visit?
                                                            134

                YES

                NO ANSWER:




41. Thinking about the future, bow likely are you to use the information about
       participating doctors to select a doctor to visit? Are you:

                 LIKLY TO USE TH INFORMATION                251
                 NOT LIKELY TO USE
                  TH INFORMATION                            120
                 NO ANSWER:



 42. For people who are interested, the Medicare program bas information by individual
     hospital on hospital mortaliy (death) rates of Medicare patients. Were you aware
                  that the Federal Government publishes " Medicare Hospital Mortality
        before today 


     Information?"

                     NO (Skip To Q- 44)                      337
                     YES
                     NO ANSWER:
                                                   Response            Percentage
Question
                                                                       " to choose a
43. Have you ever used the "Medicare Hospital Mortality Information
    hospital?


         YES
         NO ANSWER:



44. If in the future you need to be hospitalized, how likely are you to use the mortality
    (death rate) information to select a hospital? (Assume you have a choice of going to
    one of two hospitals and both are equally convenient and seemingly of equal quality.

          LIKLY TO USE TH INORMATION                    196
           NOT LIKELY TO USE

           TH INORMATION                                167

           NO ANSWER:



 45. Who selected your hospital the last time you were hospitalized?

           YOU                                          126

           YOUR DOCTOR                                  212

           YOUR RELATIVES OR FRrNDS

           OTHR

           HAVE NEVER BEEN IN TH HOSPITAL



                                                                         inspections done
 46. The Medicare program also publishes information on the results of
     of nursing homes. Before today, 
 were you aware that the Federal Government had
     this type of information on nursing homes?

           NO (Skip To Q- 48)                            290

           YES

           NO ANSWER:
Question                                            Response        Percentage

47. Have you ever used this nursing home information to choose a nursing home?


         YES
         NO ANSWER:



48. Now that you know about the nursing home information, are you likely to use the
    information if you should need to select a nursing home?

         LIKLY TO USE TH INFORMATION                    316

         NOT LIKLY TO

          USE TH INORMTION

         NO ANSWER: 





Part 5: CATASTROPHIC HEALTH CARE

49. In 1988, Congres passed the Medicare Catastrophic Coverage Act to help cover
    catastrophic health care costs. Wereyou aware              that changes are being
                                                    before today



    made to the Medicare program to cover catastrophic health care costs?

           NO (Skip To Q- 51)                             111
           YES                                           276
           NO ANSWER:



SO. How well do you understand what the changes are?

           UNDERSTAND TH CHANGES

            VERY WELL

           UNERSTAND GENERALY

            WHT TH    CHANGES ARE

           DON' T UNDERSTAND

            TH CHANGES VERY WELL                          140

           NO ANSWER:
                                                         Response           Percentage
Question
51. Listed below are some of the changes the Medicare Catastrophic Coverage Act made
   to the Medicare program. 

                                           were you aware of these changes.
                                        Before today,





             YES
         a. You will now pay a deductible for hospital charges only once a year and after that,


             NO
            Medcare pays the cost of all other covere services


            . NO ANSWER: 

                                                              194
                                                              185



         b. Stang in   1990, Medicar wil increase the number of days you can receive
            medical care in your own home

            YES                                          131

                                                              247
              NO ANSWER:

                              each year after you have paid a specified amount of your share of


              YES
          c. Starng in          1990,
                                                                                   Medcare
              approved charges under Par B (e. g. doctor and outpatient services),


              NO
              will pay l00%of the remaiing approved charges for the year


              NO ANSWER:
                                                               110
                                                               266



           d. Starng in         after you pay a deductible, Medicar wil cover a few
                                1990,

               prescription drgs. In 1991, after you pay a deductible, Medcare wil cover
               most prescription drgs
               YES                                             137
                                                               239
               NO ANSWER:




                YES
                Staing in 1989, you may be required to pay a supplemental premium


                NO
                for Medicare based on the amount of your federal tax liabilty


                NO ANSWER: 

                                                                174
                                                               200
                                                  Response           Percentage
Question
                                                              these changes. Did you
52. Listed below are ways peple might have found out about
    find out about the changes from any of the following?

       a. From the newspaper, TV, or radio
         YES                                          196
                                                      147




         YES
         NO ANSWER:




         NO
       b. From the Medcare pamphlets received in the mail


         NO ANSWER:
                                                       199
                                                       150



       c. From your doctor

          YES

                                                       304
           NO ANSWER:

       d. From a social security offce

          YES

                                                       288
           NO ANSWER:

           From a frend or relative
           YES
                                                        287
           NO ANSWER:


        f. From an insurance salesperson

           YES

                                                        305
           NO ANSWER:


        g From a senior citizens ' group

          YES

                                                        282
           NO ANSWER:

         h Other

            NUMBER OF PEOPLE RESPONDING
Question                                           Response           Percentage

53. There is a toU- free number which you can call for information about the changes
    related to catastrophic health care. Were you aware of this number before today?

                                                       319
         YES
         NO ANSWER:



54. Overall, do you believe that the changes related to catastrophic health care are an
    improvement to the Medicare program?


          YES                                           130
          DON' T KNOW                                   176
          NO ANSWER:


Is there anything else you want to tell us about Medicare?


           POSIT

           NEGATI
           MIXD
           OTHR
           NO ANSWER:                261


 NOTES:


    Not every respondent answered every question. Percentages are based on actual
    responses. The number of respondents not answering an individual question is not
    included in the calculation of percentages.



    The sum of individual percentages may not equal 100 percent due to independent
    rounding.
.. . .       ..               .            ; " , ..,   . .'   . '   '-,




                                                                          tiLt GO 





  . I





  .f
 '0

      .tit
              lt"d:m .

OFFICE OF INSPECTOR GENERAL
OFFICE              OF ANAL       YSISAND INSPECTIONS 

                                                                              OCTOBER 1989
. --   '. - '.-       ..
                  ,. '

                  - - . -         - -- : : ' . '    - -:--   "'   ,-'          , ­
--        -.




:he missIon ofth
                 qIc  oflnsPectorGenera(OIG) is . topr()Ilote theeffciency,             ffeCtive
   SS1-     4JI1            ty,
                                  ofprogrsiIth U11t               States       ParentofH
                                                                                 alth d:JJ1J                Ser
      WHS), ItdQe tPispy dev lopinglletQ()s tO tet andpreventft ud, \Vaste, and
*b1ise. q:eateby~tan1t iri 1976, theJns torGeneral keeps. both the Sect3and the Con­
gre sfuUYald pllentlyinormed aboutprpgrats'Or management prQblemsandrecommengs
cOritiyea.rlon. The OIGperfoI1l1sitsinssiqn hy conductig audits, vestigations, and iJ­
~tions irtlapprOxiatelyl 200sta strategicaly located around the countr.



This teportis         pI"ucedbytl1eOfce of Analysis and In~tions(OJ\,                       one of the thee
nUljor" offces       With the OIG.                 Theother two ' are the Offce of Audit and We Offce of Investi- ­
gations. InsPetions are conducted ill accordce with professional stadadsdevelope(lby
OAL Thesejnspections artYicalyshort tenn studies designed to determe program effec­
t:veIl    efftiency, aqdvulnel"bilties to frud or abuse.

Thepproseofths inspection , enti!led" A Surey. of Medcare Beneficiar Satisfaction:
1989, isklassess beneficia experience with the Medcar progr.

TlsiIs            tionwasperformedu.nder the dition                        of Linda Herzg, the Regional Inspector
Gellerij of the Region IV Offce QfAnalysis and Inspetions. Parcipatig in the projeCt were:



Atl anta         Region                                           Headquarters
                    Project Leader                                Bar Steeley
Joe Townsel
Betty Davis, 


                                                                  Wm. Mark Krshat, MPH
Doug Marhal                                                       Vicki Chiton
Peggy Daniel                                                      Linda Moscoe
Ar Jones, Ph.
Paulette Roberts
Kimberly Graves
Elizabeth Roper
JudyMorgan .
